<html>
<title> - COAST GUARD AMENDMENTS OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                     COAST GUARD AMENDMENTS OF 2005

=======================================================================

                                (109-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

22-498 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)



                                CONTENTS

                               TESTIMONY

                                                                   Page
 Lederer, Calvin M., Deputy Judge Advocate General, United States 
  Coast Guard....................................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Fortuno, Hon. Luis G., of Puerto Rico............................    14
Fosella, Hon. Vito, of New York..................................    16

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Lederer, Calvin M...............................................    18

 
                     COAST GUARD AMENDMENTS OF 2005

                              ----------                              


                        Wednesday, May 12, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Coast Guard and Maritime Transportation, 
            Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Frank LoBiondo 
[chairman of the subcommittee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee on Coast Guard 
and Maritime Transportation will come to order.
    The Subcommittee is meeting today to hear testimony on the 
Coast Guard Amendments of 2005. The Subcommittee, again, as I 
said, is meeting this morning to review the Committee print of 
the Coast Guard Amendments of 2005. The bill makes several 
changes to laws related to the Coast Guard and Maritime 
Transportation sector. It includes a number of provisions that 
will improve the Coast Guard's ability to enhance maritime 
security in U.S. waters, in foreign ports and on the high seas. 
The bill directs the Secretary to establish a pilot program to 
demonstrate technologies to track vessels at greater distances 
from our shores.
    It has been three years since the Long Range Vessel 
Tracking System was authorized under the Maritime 
Transportation Security Act. While I understand the need to 
work through the IMO on the issue, I don't understand why the 
Coast Guard would not move to set up a voluntary program in the 
interim. The Long Range Vessel Tracking System will enhance the 
Coast Guard's ability to identify and target vessels of 
interest and will further push out our borders. I hope the 
pilot program included in this bill will encourage the Coast 
Guard to field this system as soon as possible.
    The bill also makes changes to existing law to improve the 
ability of the Federal Government to prosecute individuals 
apprehended as part of the Coast Guard's illegal drug 
interdiction missions. It authorizes the Coast Guard to provide 
technical assistance to improve the law enforcement and 
maritime safety and security training programs of our 
international partners, and it increases civil penalties for 
vessel owners and operators who violate maritime transportation 
security regulations.
    The authorities granted by this bill will enhance the Coast 
Guard's ability to carry out its many traditional and homeland 
security missions. I hope that my colleagues will support these 
amendments as we move forward with H.R. 889, the Coast Guard 
and Maritime Transportation Act of 2005, at full Committee 
later this month. I want to thank the witnesses for appearing 
before the Subcommittee this morning and I look forward to 
hearing your views on the bill.
    Now we will turn to Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. Good morning.
    As you said, most of the amendments that have been proposed 
have been submitted to Congress by the Coast Guard for 
improvements in the laws. Other amendments have been proposed 
by members for inclusion in this year's authorization bill, 
which include closing a loophole to ensure that ferries that do 
not charge a fare are subject to all Coast Guard safety 
inspection and manning laws; requiring the Coast Guard to 
adjust the rate for pilotage on the Great Lakes annually; 
establishing a Coast Guard history fellowship program that will 
provide grants to doctoral students in history to write their 
dissertation on some aspect of Coast Guard history; and 
establishing a program in the Department of Transportation to 
promote the use of U.S.-flagged liquified natural gas tankers.
    If these tankers are going to enter our waters, it makes 
sense that they be U.S.-flagged ships employing the best 
mariners in the world, our U.S. mariners.
    As you know, Mr. Chairman, there are a number of provisions 
in the Administration's proposal that are not included because 
they require more study by our Committee. For example, the 
Coast Guard proposed to totally rewrite the laws related to 
issuing licenses in merchant mariners' documents to U.S. 
mariners. But unfortunately, they never bothered to talk to the 
industry or the affected mariners in these proposals. It is a 
complex issue that affects thousands of jobs on U.S.-flagged 
ships. We will need to carefully examine these proposed changes 
to ensure that our waterways will continue to be safe and that 
the rights and benefits of mariners are protected.
    Thank you, Mr. Chairman. I look forward to working with you 
in a bipartisan way for the full Committee markup of the bill.
    Mr. LoBiondo. Thank you, Mr. Filner.
    Mr. Diaz-Balart, do you have anything in opening to say?
    Mr. Diaz-Balart. No, thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Boustany?
    Mr. Boustany. No, thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you. Welcome, Mr. Calvin Lederer, 
Deputy Judge Advocate General of the United States Coast Guard. 
Thank you for being here.

TESTIMONY OF CALVIN M. LEDERER, DEPUTY JUDGE ADVOCATE GENERAL, 
                   UNITED STATES COAST GUARD

    Mr. Lederer. Thank you, Mr. Chairman, and good morning to 
you and to the distinguished members of the Subcommittee.
    I am Calvin Lederer, Deputy Judge Advocate General of the 
Coast Guard. On behalf of the Commandant, thank you for your 
invitation to appear here before you today.
    I also thank you, Mr. Chairman and Representative Filner, 
for your support and sponsorship of the Coast Guard and 
Maritime Transportation Act of 2005, which authorizes full 
funding for the Coast Guard for the coming year. As you know, 
the Coast Guard is a multi-mission maritime service. Every day 
we simultaneously lead the Federal Government in maritime 
homeland security and perform our many other missions, such as 
fisheries enforcement, search and rescue and environmental 
protection. Coast Guard men and women are also still providing 
their unique maritime security capability as part of the 
coalition forces in Iraq and other locations distant from our 
shores.
    On April 12th, the Commandant transmitted to you the 
President's proposed Coast Guard Authorization Act of 2005. I 
would like to highlight some of that proposal's key provisions 
and ask that you consider including them in the Committee's 
bill to which you referred earlier, Mr. Chairman.
    The President's proposals will enhance the Coast Guard's 
ability to effectively carry out our homeland security 
responsibilities and also allow us to better carry out our 
traditional missions. The President's proposal does include a 
complete update of the merchant mariner credentialing statutes 
in Title 46 of the United States Code. One of the legacies of 
the events of September 11th is the urgent necessity to better 
control who is able to obtain Government-issued credentials. 
The 9/11 Commission report noted that the hijackers used 
Government-issued identification cards like driver's licenses, 
and recommended that forms of identification be made more 
secure.
    The changes we propose as an important step we can take to 
instill a culture of security within a system that has 
previously focused almost exclusively on safety and efficiency 
and better insulated vessels and maritime infrastructure from 
the threat of terrorist attack. These changes will enable the 
Department of Homeland Security to heighten the security of all 
mariner credentials in partnership with the mariners themselves 
and the maritime industry.
    In the area of marine safety, we can do more to protect the 
commercial fishing industry. In recent years, it has become 
clear that the rate of fatalities in the commercial fishing 
industry is alarmingly high. In 2002, the Bureau of Labor 
Statistics found that commercial fishermen working aboard 
uninspected fishing vessels died at a rate of 71.1 per 100,000 
workers, while the rate for the American workplace as a whole 
was 4 deaths per 100,000.
    Between the years 1999 and 2003, the uninspected fishing 
vessel industry reported 291 deaths and 528 vessels lost. The 
Administration's proposal would authorize the Secretary to 
establish a limited five-year pilot program in two geographic 
areas to examine two vessels and their crews to ensure both 
that required safety equipment is on board and that the crew is 
trained and exercised in its proper use. Data from our current 
voluntary program in which only 6 percent of fishing vessels 
take part indicate that these examinations reduce fatalities 
and vessel losses.
    Turning to oil spills, the recent spill, such as the Athos-
1 in Delaware Bay have highlighted the need for the Coast Guard 
to have a capability to quickly meet large numbers of claims 
against the Oil Spill Liability Trust Fund that was authorized 
in the Oil Pollution Act of 1990. The President's proposal 
addresses this need by providing for limited access to the fund 
to pay direct costs of processing claims.
    We have listened to the Committee's concerns with respect 
to past proposals, and we have significantly narrowed the types 
of costs that we propose be paid out of the no-year part of the 
fund. The proposal would give the Coast Guard a surge 
capability to quickly and efficiently get the relief Congress 
intended to those who are damaged by an oil spill.
    My written statement discusses these issues and others in 
greater depth, and I ask that it be included in the record for 
your consideration, respectfully.
    The men and women of the Coast Guard meet extraordinary 
challenges every day. I am honored to be here on their behalf, 
and on their behalf and the Commandant's, thank you very much 
for your efforts to enact a Coast Guard authorization bill 
again this year and for the opportunity to appear before you as 
well.
    I will be delighted to answer any questions you may have.
    Mr. LoBiondo. Thank you very much.
    I will start off with a couple. Concerning the Coast Guard 
headquarters, the Administration's fiscal year 2006 budget 
requests approximately $38 million to begin the study and 
design work to transfer the Coast Guard headquarters to the St. 
Elizabeth Hospital complex. The budget suggests that other 
Federal agencies, we are guessing likely within the Department 
of Homeland Security, will follow the Coast Guard to St. 
Elizabeth. But if I am correct, I understand that no other 
Federal agency has been designated to make that move, and the 
campus cannot be accessed from the I-295 nor is it accessible 
by Metrorail.
    So the question is, has the Coast Guard asked to be 
transferred to St. Elizabeth's? And is the Coast Guard in 
consultation with GSA to oversee the site study and any design 
work to ensure the area would be developed should any transfer? 
Does that meet the Coast Guard requirements? And the last 
question is, is the Coast Guard investigating ways to transport 
personnel from the Metrorail or improve access to I-295? I 
don't know who is going to pay for that access. I understand it 
can be a substantial amount of money.
    Mr. Lederer. Mr. Chairman, the Coast Guard's interest is in 
relocating from our current location, or at least finding a way 
to co-locate all of our headquarters activities in one 
location, which our current location does not appear to provide 
a solution. By fiscal year 2008, we expect to have a 400,000 
square feet shortfall in the headquarters in terms of our 
overall needs.
    Currently we are dispersed over five locations. So there is 
a need to find a way to consolidate Coast Guard headquarters in 
one location to improve the efficiency of the headquarters.
    With respect to the St. Elizabeth's proposal, of course the 
General Services Administration is the lead agency for this. 
They have a $24.9 million budget item, I believe, in their 
fiscal year 2006 budget specifically to engage in the kind of 
master planning that is necessary to determine what St. 
Elizabeth's can support or can't support.
    They have entered into a contract, as I understand it, that 
will require a master plan to be produced by September of 2006 
that will specifically address all of these issues that you 
have referred to, Mr. Chairman, such as accessibility being a 
major issue which is recognized, as well as what else can St. 
Elizabeth's support in terms of Federal Government activities 
in addition to the Coast Guard.
    So I think, sir, the answer is these issues are very much 
in our mind and apparently are also in the mind of GSA, which 
has let its contract for this master plan. We are confident 
that these issues will be addressed by the GSA as it moves 
forward in the master plan. We hope to work very closely with 
GSA as they move ahead in their planning.
    Mr. LoBiondo. Do you have any idea of timing?
    Mr. Lederer. Yes, sir. The master plan, as I say, is the 
contract that they have let with a company, Jones, Lang, 
LaSalle, it is expected, well, not expected, the requirement of 
the contract is to produce a master plan in one year's time. So 
that should be reported out in September of 2006. That I think 
will give us a significant amount of information to decide next 
steps.
    Mr. LoBiondo. Last month you proposed to rewrite the 
statutes relating to the Coast Guard's merchant mariner 
documentation program. We have heard, though, numerous concerns 
that have been raised by the maritime industry, and I'm just 
wondering if you can talk a little bit about what the Coast 
Guard may be doing to work with the industry to address some of 
these concerns and generally where we stand with that.
    Mr. Lederer. Well, sir, first if I could address the nature 
of the proposal. In large measure, this proposal does two 
things. One, it simplifies and modernizes the existing 
provisions concerning merchant mariner credentials. But equally 
and in fact more important, it addresses maritime security in a 
way that the existing rules do not.
    We have discussed this with MERPAC. They have taken it 
under advisement, they have not taken a position with the Coast 
Guard as yet. They wanted to look at the proposal more closely. 
We are planning a public meeting in June to listen to concerns 
of industry and mariners concerning these proposals.
    The important point, sir, I think is that this proposal is 
a chance to simplify in large measure, as I mentioned, and 
would lead to regulation a great kind of the kinds of issues 
that we suspect that the industry would be concerned about. So 
we would have significant amount of opportunity for input from 
the industry as we move forward to further implement the 
statutory change once it takes place.
    But the issue of maritime security, that is a major driver 
in terms of the timing of the provision. Currently, in terms of 
the issuance of merchant mariner credentials, maritime security 
is not one of the bases on which you can issue or not issue. So 
one of the specific changes that we might like to do is to 
clearly indicate that maritime security is a consideration, not 
only for suspension and revocation of an existing credential 
but also for the issuance of that.
    So linking the whole merchant mariner credentialing system 
to maritime security is a significant objective that we have 
here. The specific changes that this proposal would work to 
existing practice are actually rather few in number, but they 
are significant, as I say, because they raise maritime 
security.
    One of the issues which we have proposed, or one of the 
issues we would like to address is, for example, temporary 
suspension of the credential in the event of an incident. We 
would propose that temporary suspension be permitted 
immediately. But we want to balance that with due process of 
mariners. So we require in our proposal that a mariner have the 
opportunity before a hearing, before an administrative law 
judge, within 30 days of the temporary suspension.
    This kind of provision addresses a situation like we had in 
Staten Island, where we had no ability to immediately suspend 
without the benefit of an immediate hearing before an 
administrative law judge.
    So summarizing, Mr. Chairman, with respect to the very 
specific things we are proposing here, there are very few 
specific changes that would alter the terrain of the current 
credentialing system and inject maritime security in a 
statutory fashion that advances us on the road. It also puts us 
in a position where we can continue to mutually develop with 
TSA and other agencies transportation worker identify cards, 
but again without significantly or actually in any way 
disadvantaging, in our minds, mariners or the industry.
    Mr. LoBiondo. Thank you.
    Mr. Filner.
    Mr. Filner. I would just like to pursue that issue a little 
bit more, sir. As you know, this Committee, the Congress wrote 
the standards for a transportation worker identification card 
in the Maritime and Transportation Security Act. And that was a 
security document to grant access to a secure area.
    I think if Congress had wanted the merchant mariners 
document to become the security card, we would have done that. 
So you want to link the two, I guess, in one card. So what is 
wrong with the way the system is set up now? That is, why do 
you need to duplicate the security background check that will 
be done for this TWIC card in your evaluation of mariners?
    Mr. Lederer. Mr. Filner, we are not yet in the position of 
proposing that there be one credential and only one credential. 
But we want to set the conditions so that is a greater 
possibility and to modify the system or at least provide the 
basis for regulatory reform that might allow that down the 
road. So to make life easier, in fact, for mariners, they can 
have a single credential that would satisfy the requirements of 
the TWIC, satisfy requirements concerning qualifications for 
merchant mariner credentials as well as security and at the 
same time, satisfy the notion of an international seafarer card 
that Congress has also spoken about.
    So we would like to provide a potential for that. I don't 
think that we have a clear plan at this point to have a single 
credential.
    Mr. Filner. I am not sure why that necessarily would be 
simpler or better for the mariner, in that whatever standards 
are used for the security, somebody may lack for whatever 
reason, but still be able to work on non-secure areas. It 
sounds like your one card would, I mean, let's say the person 
had visited the Middle East or something and by some standard 
that became ineligible for a secure card. But now you're going 
to deny the ability to work at all.
    Mr. Lederer. Sir, at this point, as I say, we are not 
proposing a one card solution. But certainly that is one of 
many alternatives at the Department of Homeland Security
    Mr. Filner. Well, what's wrong with the existing law that 
you want to, what different standards are you going to apply to 
that security clearance that is not good enough? What is wrong 
with the system that you want to change it?
    Mr. Lederer. Currently, with respect to merchant mariner 
credentials, there is no requirement for security background 
check going in at all right now. That is a significant thing 
that I think we need.
    The focus of merchant mariner credentials, currently, as I 
understand it, is focusing on qualifications and not security. 
So
    Mr. Filner. Right, but then we set up this second card.
    Mr. Lederer. The TWIC.
    Mr. Filner. Yes, the TWIC. What's wrong with that?
    Mr. Lederer. Potentially, that might be acceptable. But it 
would seem to me that the potential of having a single round of 
security checks that would satisfy both the needs of the TWIC 
and the needs of merchant mariner credentials would be 
worthwhile.
    Mr. Filner. But then it's like a truck driver, you know, a 
truck driver gets a license that says they are able to drive a 
truck. And if they need to get into a secure area, then they 
will have to go under a TWIC thing. So you have separated 
competence in the field versus a security clearance, which 
seems to me to be a better fit. If you put everything in one, 
then somebody can't even have the competence in the field 
measured. Who knows what the security thing is? We have had 
instances, since 9/11, of people, for a lot of reasons, a lot 
of unjust reasons, being denied the security clearance of 
something or other, maybe having the same name as somebody else 
and not being able to get it.
    So it seems to me with one card you get into all the 
problems of a society which is going to a one-computer thing 
and if you screw that up, if you make a mistake on your visa 
card, if somebody makes a mistake and you're going to be denied 
a driver's license because of that, that would be pretty 
disastrous for a lot of people. I think you are moving into 
that direction and you ought to be very cautions. That is why 
we are not prepared to do anything about it yet.
    Mr. Lederer. Sir, if I could just make one comment in 
response. While you raise valid concerns about what the level 
of security may be required ultimately for the TWIC versus what 
we want in terms of a mariner who is actually onboard a vessel 
and operating on a vessel. Leaving that issue aside, with 
respect to merchant mariner credentials, security needs to be 
an issue that we have to be concerned about in terms of giving 
a credential to a mariner to actually operate on a vessel when 
he is at sea.
    Maritime security is a significant concern. We need to 
factor that into the merchant mariner credential process as it 
exists today. Leaving aside completely what the form of the 
TWIC may ultimately take and whether it might be one card or 
several cards, but basically, merchant mariner credentials need 
to be tied to maritime security as well as marine safety.
    Mr. LoBiondo. Mr. Reichert, do you have questions?
    Mr. Reichert. Thank you, Mr. Chairman.
    A question, sir. Thank you for being here this morning.
    Section 102 of this Committee print authorizes the 
Commandant of the Coast Guard to provide technical assistance 
to international navies during regular Coast Guard operations 
without a specific request from a third party to the U.S. 
Government. How will this new authority assist the Coast Guard 
in your drug activities?
    Secondly, have any turf war issues [audio gap].
    Mr. Lederer. First of all, good morning, Mr. Reichert, and 
thank you for your question.
    We think this would be a significant benefit really across 
the full spectrum of Coast Guard missions as we operate 
internationally, but in terms of our drug interdiction in 
particular. We operate alongside and in cooperation with the 
navies and coast guards of other nations. Those opportunities 
provide opportunity to train them further in terms of boarding 
practices, for example, and so this kind of a change would give 
us affirmative authority to be able to go and engage in 
different types of training activities from our normal 
operations.
    One example, and also another issue I think that comes up 
occasionally is that some of the foreign navies and coast 
guards with which we work are not as financially well off as we 
are. As a consequence, they may not be, their operations are 
hindered by equipment that sometimes is not functional. This 
would allow us the opportunity to provide some incidental 
assistance when we are conducting normal operations.
    We have seen this happen with the Haitian Coast Guard, for 
example, where we were able to provide assistance to them in 
terms of making sure their vessels are operational as we are 
actually in the course of an operation. We saw that happen 
during the Haiti operations in 2004. Of course, that gets to 
repatriation of migrants and different areas of our world of 
work.
    Getting back to drug enforcement, in terms of boarding 
practices, case preparation, those kinds of issues, this should 
provide us the opportunity to work more directly to support our 
international partners, but again, only incidental to our 
normal operations.
    With respect to turf, we have a very close positive working 
relationship with the Department of State. We think they are 
supportive of this modest increase in our authorities. In fact, 
the provision does require us to coordinate with the Department 
of State when we are undertaking that.
    The Department of Defense is another agency with which we 
work a great deal. That gets mostly away from the drug 
enforcement issue, more towards our overseas activities, or 
maybe working with foreign navies.
    Mr. Reichert. Thank you. The second question has to do with 
Section 201, that changed the definition, amends the definition 
of a passenger vessel. In Washington State, we have quite a 
ferry system, as you probably know. I am just curious how this 
definition, amendment of the definition will affect your 
ability, if it is affecting the Washington State ferry system, 
if there is any change at all, and working with the Washington 
State people to do that.
    Mr. Lederer. If you are referring to the Committee's 
proposal to change the definition or to include ferries within 
the definition of inspected vessels, we welcome moving in that 
direction. We think that the Committee's proposal is perhaps a 
touch too broad as it currently stands, because the language I 
believe that would be changed is to have a ferry, would have 
any passenger on board. With respect to the current inspection 
regime, we discern between large vessels and small vessels. 
With respect to large vessels, you have to exceed 100 tons and 
then be one of these types of vessels. That probably addresses 
the point reasonably well with respect to ferries, larger 
ferries, in other words.
    But the Committee's proposal would also change then 
language with respect to small passenger vessels and include 
ferries within that. That would then reach basically the 
smallest type of ferry, including if you can imagine one of 
those ferries that goes across a river and takes one or two 
cars at a time. I don't think we want to get into the business 
of inspecting those and I don't think that addresses the 
objective that the Committee had.
    So we would like to work with the Committee to address the 
problem of larger ferries based either on tonnage or perhaps on 
the number of passengers that vessel may carry.
    Mr. Reichert. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. We are going to take a brief break, and while 
we do that, let me say that Congressman Vito Fossella had 
wanted to be here today, and a last minute change made it 
impossible for him to attend.
    But I want to ask unanimous consent that his statement be 
made a part of the record. Congressman Fossella has been 
involved with this issue from the very instance of the terrible 
Staten Island ferry accident and the whole issue of ferry 
inspections. We had a hearing up in Staten Island and I wanted 
to thank him for his leadership on this issue and ask for that 
unanimous consent request.
    Mr. LoBiondo. Okay, we're set to go. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. A couple quick 
questions. On Section 204, is the net result of that an anchor-
handling vessel is now subject to the Jones Act, has to be 
American-owned, American-flagged?
    Mr. Lederer. Good morning, Mr. Taylor. That is our 
understanding of their proposal.
    Mr. Taylor. Okay. Going back to 201, the small passenger 
vessel. If it is carrying passengers with or without charge, 
what are the chances that suddenly every vessel is now subject 
to this? If you think about every vessel that I know of is 
carrying, except a barge, is carrying a passenger.
    Mr. Lederer. Yes, sir. That is another issue that is raised 
by the Committee's proposal. There is no definition of a ferry 
that is in the Committee's proposal nor is there a definition 
of ferry that is contained the law currently. There is a 
definition of ferry that is contained within the Code of 
Federal Regulations with respect to fees. That would serve 
reasonably well in terms of trying to find some kind of 
definitional basis for how we might regulate ferries for 
inspection purposes under Title 46.
    So the absence of a definition of a ferry is an issue that 
we would be happy to address in greater discussions with the 
Committee. One thing I would mention, to the extent that we 
tied this provision to the size of the vessel or the number of 
passengers that it carries, that would then limit the scope so 
that you are getting at what I think the Committee was getting 
at, which is the Staten Island ferry type of case, which is 
truly a commercial ferry where you are trying to avoid 
tragedies.
    Mr. Taylor. Sometime between now and markup, if you could 
get me the language of defining passenger vessel. I don't want 
to see the unintended consequence where every aluminum skiff, 
every kayak, every dingy is suddenly held to the same 
regulations.
    Mr. Lederer. We welcome the opportunity to provide you 
drafting assistance to work with the Committee's proposals that 
exist now and to recraft it in a way that we think would not 
reach those types of vessels and at the same time, avoid the 
kinds of tragedies that the Committee is seeking to avoid.
    Mr. Taylor. Okay. Lastly, you do have an explanation, but I 
would like to hear it from you, explain the changes in Section 
205.
    Mr. Lederer. Sir, I am sorry, I don't have the Committee's 
bill in front of me, 205 referring to?
    Mr. Taylor. Amends the Maritime Drug Law Enforcement Act to 
allow the Coast Guard to certify a foreign nation's response to 
an inquiry of a vessel's nationality without notifying the 
Coast Guard
    Mr. Lederer. Okay. This relates to our drug enforcement 
activities, sir. Currently the way it works is that when we are 
engaging with another vessel, or I should say when we believe 
there is a suspect drug vessel, we will make a right of visit 
boarding or address the master of the vessel and say, so what 
nation are you from. Then the individual will say, I am from 
Colombia, let's say.
    We then will contact the flag state and either confirm or 
deny the nationality of the vessel. If the country confirms 
that yes, this vessel is of Colombian registry, then we ask 
Colombia for permission to board and potentially seize the 
vessel, which we get in due course, where it is clear that the 
vessel's nationality is Colombian.
    The difficulty that this addresses, and I might add 
furthermore, that when that case is then brought to 
prosecution, there is a certification that is easily done that 
is accepted in court which simply says, we contacted the 
Colombians and the Colombians said, this is our vessel. They 
confirmed nationality.
    Therefore, the boarding that proceeded thereafter was in 
accordance with international law and the rest of the case goes 
just fine. The difficulty is that in the go-fast situation, 
which is the majority of our cases, not necessarily all or even 
a very large majority, but a majority of our cases, in the go-
fast situation, the vessel may make a claim of nationality and 
then the purported flag state really can't confirm or deny. So 
this very simple change in the law will allow us to make a 
certification to the court that simply says, we spoke to 
Colombia and Colombia could neither confirm nor deny, and that 
therefore gave us a legal basis to declare this vessel 
stateless, board it, seize it, and that's why this defendant is 
in front of you today.
    So it is a very small but very significant change. 
Currently we probably, a couple of dozen times a year have to 
bring Coast Guard watch standers into court, sometimes multiple 
watch standers, to testify concerning the content of their 
communications with the flag states or at least the purported 
flag states. This would avoid that and simply make it easier to 
just file one certification.
    Mr. Taylor. Okay. I think that's it. Thank you, Mr. 
Chairman. Thank you, sir.
    Mr. LoBiondo. Thank you, Mr. Taylor. Mr. Diaz-Balart?
    Mr. Taylor. Mr. Chairman, if I may.
    Mr. LoBiondo. Yes, Mr. Taylor.
    Mr. Taylor. And I apologize. Section 106, you are making 
some changes to the section on Coast Guard reservists to active 
duty for not more than 60 days in a full month period, not more 
than 120 days in a two year period. What is the present law?
    Mr. Lederer. The present law, sir, is essentially half of 
that. We can recall reservists, really only in a consequence 
management kind of a role, but as there is a major man-made or 
natural disaster, in response to that disaster, we can call 
people up. Currently, we can only call up for 30 days within a 
4-month period, and then 60 days within a 2-year period.
    So this provision makes two very significant changes that 
are important to maritime and homeland security. First, it 
expands the number of days to 60 days within a 4-month period 
that we can call somebody up, and then for a total of 120 days 
in any 2-year period. So it doubles essentially the amount of 
time we can call a reservist up.
    But the other thing is that we can call that reservist up 
in advance of an incident occurring, that is to say in the 
situation I have posited, where have intelligence suggesting 
that there may be a transportation security incident in the 
offing, we can call up reservists in advance of that occurring 
so that we can bolster our maritime homeland security posture. 
So that's essentially what we are proposing and what the 
existing law is, sir.
    Mr. Taylor. That I would think is extremely broad language. 
I would think this is going to give you extremely broad 
language. We think something is getting ready to happen, so 
therefore we are calling you guys up. That is basically the 
only justification you need?
    Mr. Lederer. Well, sir, if the homeland security alert 
level was to go to orange or if we have an indication we are to 
go to red, the ports in that area that we presume are 
threatened are going to have to go to a higher state of 
security, going to MARSEC2 with a potential of MARSEC3. In that 
situation, we need to augment our forces, both by moving active 
forces and potentially by augmenting with reservists.
    We are very conscious, very conscious of the necessity not 
to interfere or disrupt the lives of our reservists. At the 
same time, the Secretary needs the flexibility to call up 
reserve when he believes they are necessary to address a 
potential incident that we have to at least conjure up.
    Mr. Taylor. Okay. Thank you, sir.
    Mr. LoBiondo. Thank you. Mr. Diaz-Balart? Questions?
    Mr. Diaz-Balart. No, thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Mack?
    Mr. Mack. Thank you, Mr. Chairman.
    I wondered if you could just talk briefly about, in the 
Deepwater program, what kind of cost savings there may be and 
continuity of equipment if the time line was changed from 10, 
15, 20 years to 5, 10 years, something like that, if you have 
any kind of analysis done on that.
    Mr. Lederer. Sir, we have looked extensively at the issue 
of time line and advancing the time line for Deepwater, I don't 
think quite to that level. I think the Commandant would like to 
hear a five-year time line.
    But with respect to what specific economies we might get, 
depending on how you shorten the time line, I do not have that 
data with me, sir. Of course, that's a matter that's been under 
significant discussion, both with this Committee and also with 
the appropriators. We believe that are getting close to 
providing some additional data that will be of use both to this 
Committee and to the Appropriations Committee.
    I would not want to misstate myself by suggesting facts and 
figures that I don't have a good handle on.
    Mr. LoBiondo. Mr. Fortuna.
    Mr. Fortuna. Thank you, Mr. Chairman.
    I would like to delve a little bit further into the 
certification of the vessel nationality process and how does 
the different steps and perhaps additional requirements impact 
the court's ability to prosecute fully illegal drug smugglers, 
in your estimation.
    Mr. Lederer. Good morning, Mr. Fortuna. The benefit of this 
change is really, it is a resource issue. It will just give us 
the ability to simply certify to record that we were unable to 
identify the nationality of the vessel, and therefore we could 
assimilate the vessel to a vessel without nationality, and 
therefore in accordance with international law, we properly 
boarded it.
    So really it is a matter of reducing the burden down to 
simply preparing a simple certification that could be presented 
to the court without having to bring in multiple Coast 
Guardsmen off other duties. Kind of like the situation in 
traffic court where we have to bring in the police officer to 
testify concerning the case. This avoids that, at least in 
terms of the nationality issue. So it keeps watch standers in 
their stations doing the kind of work they ought to be doing, 
rather than flying to Tampa or Miami or wherever to testify in 
court.
    Mr. Fortuna. Will this provision affect other vessels other 
than just smuggling vessels coming into the U.S. waters at all?
    Mr. Lederer. No, sir, this will only be effective with 
respect to counter-narcotics work, because it would deal with 
the maritime, or I should say the Drug Law Enforcement Act.
    Mr. Fortuna. Thank you very much. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    On the provision dealing with liquified natural gas and 
authorizing the Merchant Marine Academy to train aboard 
foreign-flagged vessels, do you have a pilot program set up, or 
in mind for this?
    Mr. Lederer. Good morning to you, sir. These are provisions 
I believe that were proposed by the Committee. We have no pilot 
program of that sort currently. With respect to both the 
merchant marine issue and the LNG tanker issue, we would have 
to defer those issues primarily to the Department of 
Transportation.
    I think that's about the best we can do on that right now. 
Although of course we have an interest in, for example, 
documents, going back to the issue of merchant mariner 
credentials, we have foreign cadets in our various maritime 
academies around the country and we do have a desire, for 
example, to make sure they can train on vessels with ease. That 
is getting beyond the scope of your question, though, sir.
    Mr. Boustany. Sure. Thank you.
    Also, current law authorizes the Coast Guard and under 
certain circumstances the Navy to control the movement of 
vessels in U.S. waters, to protect safety, security of naval 
vessels that are anchored in those waters. The bill would 
extend this authority to a distance of 12 nautical miles from 
shore, to be consistent with recent Presidential proclamation 
that expanded our U.S. territorial waters.
    Can you talk a little bit about the effect this is going to 
have on other Coast Guard authorities and are there other Coast 
Guard authorities or missions that are restricted currently to 
a zone extending to three rather than twelve?
    Mr. Lederer. With respect to most of our other authorities, 
actually, through the good offices of Congress, our authorities 
have been extended out to 12 in the context of several 
statutes. Of course, the Coast Guard's authority, law 
enforcement authority is worldwide. But there are a number of 
statutes that give specific authorities that have in fact been 
expanded out to 12 through prior Congressional action.
    The effect of this provision really is to protect the Navy. 
And it doesn't really advance Coast Guard authorities more 
generally. In essence, we currently have two naval protective 
zones, one on the east coast, one on the west coast. And the 
existing law allows the senior naval officer to essentially 
exercise the authorities of the naval protective zone, that is 
to keep people away from his vessel, standing essentially in 
the stead of the Coast Guard.
    Currently, the Navy only has the authority to protect its 
own vessels out to three nautical miles. So the effect of this 
provision would be to allow the naval commander to protect his 
vessel all the way out to the end of the territory at sea 
without relying on Coast Guard vessels. So the incidental 
advantage to the Coast Guard is that since we have other 
authorities that will allow us to protect that naval vessel 
between three and twelve, then this avoids the necessity for us 
to provide escorts in all cases.
    As it is right now, the Navy prefers to provide its own 
security more often than not. So this essentially provides 
additional flexibility to the Navy to protect its own vessels.
    Mr. Boustany. Thank you. That's all I have.
    Mr. LoBiondo. Okay. I think that's it, Mr. Lederer. We 
thank you very much for being here today and the Committee 
stands adjourned.
    [Whereupon, at 10:48 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                    

</pre></body></html>
